<html>
<title> - NOMINATION OF GREGORY B. CADE</title>
<body><pre>[Senate Hearing 110-21]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-21
 
                     NOMINATION OF GREGORY B. CADE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                 ON THE

     NOMINATION OF GREGORY B. CADE TO BE ADMINISTRATOR, U.S. FIRE 
          ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY


                               __________

                             MARCH 15, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                    U.S. GOVERNMENT PRINTING OFFICE
34-412                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE MCCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
              Jennifer L. Tarr, Minority Associate Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Warner...............................................     1
    Senator Lieberman............................................     3
    Senator Collins..............................................     4
    Senator McCaskill............................................    12

                                WITNESS
                        Thursday, March 15, 2007

Gregory B. Cade to be Administrator, U.S. Fire Administration, 
  U.S. Department of Homeland Security:
    Testimony....................................................     6
    Prepared statement...........................................    17
    Biographical and professional information....................    22
    Responses to pre-hearing questions...........................    32
    Letter from U.S. Office of Government Ethics.................    48


                     NOMINATION OF GREGORY B. CADE

                              ----------                              


                        THURSDAY, MARCH 15, 2007

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, McCaskill, Collins, and 
Warner.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Let's seize the moment. I will knock the 
gavel. [Laughter.]
    The hearing is now commenced, and I would like to say to my 
former Chairman, the distinguished Senator Collins, that I am 
privileged to be here this morning for the purpose of the 
introduction of Chief Greg Cade to be the U.S. Fire 
Administrator. He is joined by his lovely wife. Would you 
kindly introduce your wife and others here, Chief?
    Mr. Cade. Thank you, sir. I have with me this morning my 
wife, Debbie.
    Mrs. Cade. Nice to meet you.
    Senator Warner. And all these other fellows behind you?
    Mr. Cade. I also have with me my brother-in-law, Jesse, and 
my good friend, Bill. They are here in support of me. And from 
the IAFC, the Treasury, Julian Taliaferro, who is also here 
with me this morning. So I am very fortunate to have some 
friends in the audience.
    Senator Warner. Well, we thank you very much for offering 
to take on this very important chapter of your life in public 
service again.
    Madam Chairman, the U.S. Fire Administration was created in 
1974 with the mission to protect the American people from loss 
of life through coordination of the various fire services, 
education, and public outreach. Today, I have the pleasure to 
introduce to the Committee a long-time Virginian, Chief Greg 
Cade, as the President's nominee to lead this organization.
    The nomination is a result of nearly four decades of 
service in Prince Georges County, Maryland; Hampton, Virginia; 
and Virginia Beach. For the past 15 years, Chief Cade has 
served the Hampton Roads Community, most recently as Chief of 
the Virginia Beach Fire Department.
    It has been our pleasure to have had Chief Cade serve the 
people of Virginia. I had the privilege to work directly with 
the Chief when Hurricane Isabel struck Virginia in 2003 and can 
say that he can be an asset to the U.S. Fire Administration and 
the men and women in the Fire Services all across America, one 
of our most heroic cadres of public servants all across this 
country.
    Under his leadership, the Virginia Beach Urban Search and 
Rescue (USAR) team, one of the 28 FEMA teams deployed around 
the country to assist in major disaster situations, has 
assisted in the response to disasters such as the September 11 
attack on the Pentagon and Hurricanes Katrina and Rita.
    Chief Cade's nomination is supported by the International 
Association of Fire Chiefs, the Virginia Fire Chiefs 
Association, the International Association of Fire Fighters, 
and numerous other organizations. The President has placed 
trust in Chief Cade with the nomination, and it is my hope that 
this Committee and the full Senate will confirm him soon so 
that he can assume this important post.
    [The prepared statement of Senator Warner follows:]

                  PREPARED STATEMENT OF SENATOR WARNER

    Mr. Chairman and Madam Ranking Member, the U.S. Fire Administration 
was created in 1974 with the mission to protect the American people 
from loss of life through coordination of the various fire services, 
education, and public outreach.
    Today, I have the pleasure to introduce to the Committee a long-
time Virginian, Chief Greg Cade, as the President's nominee to lead 
this organization. He is joined here today by his wife, Debbie.
    This nomination is a result of his nearly four decades of service 
in Prince Georges County, Maryland; Hampton, Virginia; and Virginia 
Beach.
    For the past 15 years Chief Cade has served the Hampton Roads 
Community, most recently as Chief of the Virginia Beach Fire 
Department.
    It has been our pleasure to have Chief Cade serve the people of 
Virginia. I had the privilege to work directly with the Chief when 
Hurricane Isabel struck Virginia in 2003 and can say that he will be an 
asset to the U.S. Fire Administration and the men and women in fire 
services across the country.
    Under his leadership, the Virginia Beach Urban Search and Rescue 
(USAR) Team, one of the 28 FEMA teams deployed around the country to 
assist in major disaster situations, has assisted in the response to 
disasters such as the September 11 attack on the Pentagon and 
Hurricanes Katrina and Rita.
    Chief Cade's nomination is supported by the International 
Association of Fire Chiefs, the Virginia Fire Chiefs Association, the 
International Association of Fire Fighters, and numerous other 
organizations.
    The President has placed his trust in Chief Cade with this 
nomination, and it is my hope that this Committee and the full Senate 
will confirm him soon so that he can get to work.

    Senator Warner. Recognizing our distinguished Chairman, I 
took it upon myself to hit the table and initiate this hearing. 
[Laughter.]
    Chairman Lieberman. You know, I am a great advocate of 
nonpartisanship and bipartisanship, but I did not realize when 
we changed the seating arrangement of the Committee that I 
would be inviting a coup. [Laughter.]
    Senator Warner. Well, your colleague and my dear friend 
Senator Levin and I are co-chairing the Armed Services 
Committee this morning.
    Chairman Lieberman. Yes, please go right ahead. I apologize 
to you, Senator Warner. I was going to invite you to go first. 
I was waiting to introduce Ambassador Khalilzad at his 
confirmation hearing for the Foreign Relations Committee.
    Senator Warner. Yes, the new Ambassador.
    Chairman Lieberman. Please go right ahead.
    Senator Warner. Thank you. I have just completed.
    Chairman Lieberman. Really?
    Senator Warner. Yes.
    Chairman Lieberman. Was it good?
    Senator Collins. It was fabulous. [Laughter.]
    Senator Warner. Good luck.
    Mr. Cade. Thank you.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Chairman Lieberman. OK. Chief, good to see you.
    Today we are considering the nomination of Chief Gregory 
Cade to be the Administrator of the U.S. Fire Administration. 
If confirmed, Chief, you will head an important, though 
probably not widely known, office of the Department of Homeland 
Security, the U.S. Fire Administration (USFA), which provides 
Federal leadership and support for the Nation's firefighters.
    The Fire Administration promotes fire prevention and, in 
particular, works to reduce the loss of life from fires, 
including the tragic loss of life of firefighters, 105 of whom 
perished in the line of duty last year.
    Through the National Fire Academy, the USFA provides a wide 
range of training opportunities for firefighters and emergency 
medical services providers, from handling materials to 
implementing an incident command system. And from its position 
within DHS, it helps ensure that firefighters are integrated 
into the plans and preparedness to respond to disasters, 
whether natural or manmade.
    Last year, as you know, Chief, Congress passed the Post 
Katrina Emergency Management Reform Act, which created a newly 
expanded and, we believe, reinvigorated FEMA. Under that act, 
at the end of this month, the USFA once again will become a 
part of FEMA, as it was from 1979 through 2005. And that is 
obviously where we think it belongs.
    I look forward to any thoughts you have about how USFA 
should fit in with the new FEMA and what role it might play in 
improving national preparedness and response efforts.
    I would also like to hear your thoughts on the funding for 
the Fire Service. Once again, unfortunately, the Administration 
has proposed cuts in the FIRE Act grants to first responders, 
and that troubles me greatly.
    Finally, I want to hear your ideas about interoperability. 
Specifically, what can we do to ensure firefighters have the 
tools they need not only to communicate among themselves in a 
disaster, but to communicate with other first responders as 
well as State and local officials?
    Chief, you bring to this position over three decades of 
experience in the Fire Service, including 8 years as Chief of 
the Virginia Beach Fire Department and as that city's Emergency 
Services Coordinator. If you are confirmed, I, but more 
importantly, the Nation, will count on you to use that 
experience to make the U.S. Fire Administration a truly great 
resource for our firefighters and for our Nation.
    Senator Collins.

             OPENING STATEMENT OF SENATOR COLLINS.

    Senator Collins. Thank you, Mr. Chairman. And welcome to 
you, Chief Cade
    From Ground Zero on September 11, to the Gulf Coast in the 
aftermath of Hurricanes Katrina and Rita, to the numerous 
emergencies that arise every day in communities across our 
Nation, firefighters risk their own lives to protect our lives. 
They serve as one of the pillars of the communities across our 
great land. Whether career or volunteer, America's nearly 1.2 
million firefighters exemplify professionalism, dedication, and 
heroism.
    Since Congress established the agency 33 years ago, the 
Fire Administration has served as an invaluable resource for 
training, research, and public education. Perhaps most 
impressive is the progress that the Fire Administration has 
made in helping to reduce fire deaths in this country by more 
than half. That is a remarkable record of accomplishment.
    Since the terrorist attacks of September 11, 2001, the Fire 
Administration has become an even more vital component of our 
Nation's emergency preparedness and response system. From the 
inception of the Department of Homeland Security, this 
Committee has worked hard to ensure that the Fire 
Administration has a special place within the Department, 
serving not only as the voice of America's firefighters, but as 
also one of the Secretary's principal advisers on first 
responder issues. For example, our FEMA reform legislation 
elevated the Fire Administrator to the position of Assistant 
Secretary in recognition of the important role of this agency. 
Although the Fire Administration and the Department face many 
significant challenges, no issue is more pressing than the 
continuing difficulty our first responders have in 
communicating with each other in real time and on demand in 
times of crisis.
    In his interview with the Committee, Chief Cade explained 
that new technology will play an important role in improving 
emergency communications. But he also pointed out--and I think 
this is so important--that we must not overlook other barriers 
to effective emergency communications. Non-technological 
barriers, such as the absence of governing agreements and 
standard operating procedures, also impede progress in this 
area. These are indeed crucial elements of our Nation's efforts 
to improve emergency communications, and I look forward to 
exploring these issues with the chief this morning.
    Like the Chairman, I am also interested in the chief's 
perspective on the Department's first responder grant programs, 
including the FIRE Act program, which the Chairman and I have 
been stalwart supporters of and which we are both disturbed at 
the President's budget for. The Committee has worked hard to 
improve the grant programs that strengthen our State and local 
homeland security partners.
    I will not go into the chief's background since the 
Chairman has done that already, but I would note that he began 
his distinguished 40-year career as a volunteer firefighter, 
and in my home State of Maine, 338 of our 405 fire departments 
are led by volunteer chiefs. We have a great appreciation for 
both our professional firefighters and our volunteers. They are 
both the backbone of our Nation's emergency response system.
    So I commend the chief for an outstanding career in public 
service. I would ask unanimous consent that my full statement 
be included in the record.
    Chairman Lieberman. Without objection, so ordered.
    Senator Collins. Thank you.
    [The prepared statement of Senator Collins follows:]

                 PREPARED STATEMENT OF SENATOR COLLINS

    Thank you, Mr. Chairman, and welcome to you, Chief Cade. The agency 
Chief Cade has been nominated to lead--the U.S. Fire Administration--
plays a crucial role in securing our Nation, and I look forward to 
discussing its important mission with him today.
    From Ground Zero on September 11 to the Gulf Coast in the aftermath 
of Hurricanes Katrina and Rita to the numerous emergencies that arise 
every day in communities across our Nation, firefighters risk their own 
lives to protect others. They serve as one of the pillars of the 
communities across our great land. Whether career or volunteer, 
America's nearly 1.2 million firefighters exemplify professionalism, 
dedication, and heroism.
    Since Congress established the agency 33 years ago, the Fire 
Administration has served as an invaluable resource for training, 
research, and public education. Perhaps most impressive is the progress 
that the Fire Administration has made in helping to reduce fire deaths 
by more than half--a remarkable record of accomplishment.
    Since the terrorist attacks of September 11, 2001, the Fire 
Administration has become an even more vital component of our Nation's 
emergency preparedness and response structure. From the inception of 
the Department of Homeland Security, this Committee has worked hard to 
ensure that the Fire Administration has a special place within the 
Department, serving not only as the voice of America's firefighters, 
but also as one of the Secretary's principal advisors on first 
responder issues. For example, our FEMA reform legislation elevated the 
Fire Administrator to the position of Assistant Secretary.
    Although the Fire Administration and the Department face many 
significant challenges, no issue is more pressing than the continuing 
difficulty our first responders have in talking with each other in real 
time and on demand during times of crisis. In his interview with the 
Committee, Chief Cade explained that new technology will play an 
important role in improving emergency communications. But he also 
explained that we must not overlook other barriers to effective 
emergency communications. Non-technological barriers--such as the 
absence of governing agreements and standard operating procedures--also 
impede progress in this area. These are, indeed, crucial elements of 
our Nation's efforts to improve emergency communications, and I look 
forward to exploring these issues with him this morning.
    I am also interested in the Chief's perspective on the Department's 
first responder grant programs, including the FIRE Act program. The 
Committee has worked hard to improve the grant programs that strengthen 
our State and local homeland security partners.
    Chief Cade began his distinguished 40-year career as a volunteer 
firefighter--an invaluable background for the position to which you 
have been nominated. In my home State of Maine, 338 of our 405 fire 
departments are led by volunteer chiefs. Nationally, more than 823,000 
of our firefighters are volunteers--nearly three out of every four. 
They truly are the backbone of our Nation's emergency response system.
    Despite the critical role of these volunteers, the Fire 
Administration, in its Second Needs Assessment for the U.S. Fire 
Service, noted that the number of volunteer firefighters has been in 
decline for the past several years. While many reasons have been cited 
for this drop, including social and economic reasons, many experts 
believe that increased training requirements and the consequent time 
commitments are significant factors. This trend, if not reversed, will 
have dire consequences for communities--especially in rural areas--and 
will impede our Nation's ability to respond to disasters, whether man-
made or natural.
    I commend Chief Cade for an outstanding career in public service 
and look forward to hearing his testimony.

    Chairman Lieberman. Chief Cade has filed responses to a 
biographical and financial questionnaire, answered prehearing 
questions submitted by the Committee, and has had his financial 
statements reviewed by the Office of Government Ethics. Without 
objection, this information will be made part of the hearing 
record, with the exception of the financial data, which are on 
file and available for public inspection in the Committee's 
offices.
    Chief, our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath, so I would 
ask you please to stand at this time and raise your right hand. 
Do you swear that the testimony you are about to give to the 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Cade. I do.
    Chairman Lieberman. Thank you very much. Please be seated.
    Chief, I understand that your wife and children are with 
you today, and it is my pleasure on behalf of the Committee to 
welcome them and thank them for the support they have 
undoubtedly given you to bring you to this high point in your 
career.
    Now we would welcome your opening statement, if you have 
one.

TESTIMONY OF GREGORY B. CADE,\1\ TO BE ADMINISTRATOR, U.S. FIRE 
      ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Cade. Yes, I do. Thank you, sir.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cade appears in the Appendix on 
page 17.
---------------------------------------------------------------------------
    Good morning, Mr. Chairman, Senator Collins, and Members of 
the Committee. I want to take this moment to thank Senator 
Warner for his kind introduction. My name is Gregory Cade, and 
I am the nominee for the position of Administrator of the U.S. 
Fire Administration at the Department of Homeland Security.
    I am tremendously honored that the President has nominated 
me for this important position within the Department of 
Homeland Security to be the voice at the Federal level for the 
Nation's Fire Service. I am here today because an awful lot of 
people helped me, from my parents who instilled a set of values 
that I think played a significant part in my being considered 
for this position, to the literally thousands of firefighters 
with whom I have had the honor to be associated. These are the 
people who took the time to take me under their wing, to mentor 
me, and to guide me in the right direction. They offered 
suggestions on things that I needed to do to improve my 
capabilities and gave me a swift kick at the appropriate times 
in my life; the most important group my family, who has 
supported me throughout my career and in that support made a 
lot of sacrifices for me to be able to achieve my dreams to get 
to be the fire chief of two outstanding cities, to spend my 
whole adult life in the Fire Service, and ultimately to be 
sitting here before you today, honored by the President to be 
the selection to head the U.S. Fire Administration. If it were 
not for my daughters Christie and Candace and my son Brian and, 
most importantly, my best friend, my wife, Debbie, I would not 
be here today.
    I have spent the last 39 years progressively moving through 
the Fire Service, from riding on the backstep of a fire truck, 
which I truly enjoyed, to taking on additional responsibilities 
as an officer and ultimately achieving the highest honor of 
being a fire chief. Throughout that time, I have been very 
fortunate to be engaged in a broad range of issues that have 
affected the Fire Service that I work in at the local, 
regional, national, and international level. These years of 
experience and support from so many other people have helped 
shape me in giving me the opportunity to see the Nation's Fire 
Service evolve, as it always has, to deal with new threats that 
it is exposed to.
    It has been said numerous times that the world changed 
after September 11, and I agree because based on my experience 
at having been at the Pentagon and at Ground Zero in the early 
days after the event, one cannot be exposed to that and 
participate in it without walking away a changed individual. If 
confirmed by the Senate, I hope to use my experience to help 
the Fire Administration better prepare our Nation's Fire 
Service to meet the evolving challenges that it faces today and 
in the future.
    I bring with me a personal understanding of the good work 
that the U.S. Fire Administration does. The most important 
thing that I have learned from my association with the USFA as 
a fire chief is the importance of building a network of people 
to provide input, guidance, support, and discussions over the 
various things that affect the Fire Service that we need to 
deal with.
    If confirmed, I hope to build upon the U.S. Fire 
Administration's role in supporting our Nation's Fire Service 
to continue its mission in the prevention of fires and the loss 
of life, the reduction of injuries and property loss, and 
ensuring that our first responders at the local level are ready 
to handle any emergency. I know as a front-line provider for 
the last 39 years that the key to successful operations is a 
well-trained, well-equipped, and well-exercised force.
    I also hope to strengthen USFA's fire prevention mission. I 
see the U.S. Fire Administration as having the ability to play 
a tremendous role in its basic collection of data in the 
understanding of the fire problem, to look at the national 
trends, to work with other stakeholders to develop programs, 
and to educate and inform the local communities.
    We have made tremendous progress in the loss of life. There 
is no question about that. But to still lose over 3,000 people 
a year in fires is unacceptable to me. The U.S. Fire 
Administration can play an important role in helping to support 
research and to be an advocate for safer policies and 
procedures that can be implemented at the local level.
    I believe that there is true partnership that exists and 
should continue to exist between the U.S. Fire Administration 
and our State and local partners. I know that relationship is 
strong, and it is my intention to build upon the great things 
that take place day in and day out at the local level.
    In closing, let me say once again that I am here sitting 
before you because a lot of people spent the time and energy to 
provide me guidance and support. I look forward to having the 
opportunity to make them proud, and in that spirit, I humbly 
ask this Committee to confirm my nomination to head the U.S. 
Fire Administration.
    Thank you, Mr. Chairman, for the opportunity to appear 
before you today, and I am happy to answer any of the questions 
the Committee may have.
    Chairman Lieberman. Thank you very much, Chief, for that 
very thoughtful statement. I am going to start my questioning 
with the standard questions that we ask all nominees.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Cade. No, sir.
    Chairman Lieberman. Second, do you know of anything 
personal or otherwise that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Mr. Cade. No, sir.
    Chairman Lieberman. Third, do you agree without reservation 
to respond to any reasonable summons to appear and testify 
before any duly constituted Committee of Congress if you are 
confirmed?
    Mr. Cade. Yes, sir.
    Chairman Lieberman. Thank you very much. We are going to 
start, and we will have a round of questions limited to 6 
minutes for each of us.
    Chief, you bring a real wealth of experience from your long 
career in the Fire Service and Emergency Management. To the 
extent that you are able now, I wanted to ask you what you 
would say your priorities will be--you have touched on a little 
bit of that in your opening statement--and then how you see 
your focus in the reintegration, if I can put it that way, of 
the U.S. Fire Administration into FEMA.
    Mr. Cade. Senator, I think for me the initial priority, 
should I be confirmed, is to look at what are the continuing 
needs of the front-line Fire Service providers. I think the 
major role that the U.S. Fire Administration certainly can play 
is in the realm of providing training to those front-line 
providers through the stakeholder network that already exists 
at the State and local level.
    As I said in my opening statement, I think that the 
training aspect is a critical role for the Fire Administration 
that it can play. I have been very fortunate as the chief of 
Virginia Beach to participate in quite a few of the training 
programs that the USFA has that provides a clearinghouse for 
training to the major metropolitan departments, which I am a 
part of, and also at the State and local level. I think that is 
a very critical issue for them.
    I think a second priority for me is to look at how the data 
collection piece of the responsibility of the U.S. Fire 
Administration is being done. I think more and more we are 
being asked to justify the things that we do, and I think from 
a national perspective, without having the data to support the 
direction that we are going in, it makes it very difficult to 
understand whether or not the funds that you are expending are 
being spent in the appropriate manner. So I see that as a 
second priority for me.
    The third priority that I hope to be involved with is the 
actual training that goes on at the National Fire Academy. 
Being an executive fire officer graduate, I have found that the 
most important thing that I got out of the 4 years of that 
program, aside from the educational piece, was, in fact, the 
network of people that I have been able to build across this 
country, friendships that still exist today, people that I can 
call on for ideas. And I think that is something else that 
certainly can be done for me as the nominee, and hopefully 
confirmed, to head the U.S. Fire Administration. I think that 
given the amount of time, obviously, my appointment will last, 
those are three things that I intend to take a very close look 
at.
    As far as the U.S. Fire Administration moving back into 
FEMA, I really do not know exactly why it was moved out, so it 
is very difficult from an outside perspective to really 
understand all of the dynamics that took place. What I hope to 
be able to do with the U.S. Fire Administration moving back 
into FEMA is to use the two things that I think I come to the 
table with--39 years of Fire Service experience, but also 8\1/
2\ years as an emergency services coordinator--and having been 
through quite a few natural disasters not only in the city of 
Virginia Beach but Hurricane Katrina and others.
    So I think that I bring a little bit different perspective 
as a fire chief who has been through some rather large-scale 
natural disasters, and I think that experience, I hope, will 
ease that transition in both my fire chief experience and my 
emergency services.
    Chairman Lieberman. Very good. Let me ask you about the 
grants, which concern most of us here in Congress. I am going 
to skip over the first responder grants because we have our own 
separate battles going on about that. But the FIRE Act grants 
are funded at $300 million, and SAFER Act grants would be 
actually totally eliminated. Both of those are important to 
firefighters. Combined, this would represent a reduction of 55 
percent from the fiscal year 2007 level.
    Let me ask you to, first, if you could, based on your 
experience in Virginia Beach, comment on what the Federal first 
responder grant money and perhaps FIRE Act and SAFER Act money 
meant to you in your work; and, second, if you feel you can 
play any role in advocating for some more funding for 
firefighters around the country.
    Mr. Cade. We have been very fortunate in the city of 
Virginia Beach since the inception of the FIRE Act grants. We 
have received grants 5 of the last 6 years.
    Chairman Lieberman. That is great.
    Mr. Cade. We have been able to couple that with some of the 
other grant monies that we have received through the Department 
of Homeland Security, and so that is one of the benefits that I 
see that we have tried to take that money and leverage it with 
other things and improve the overall capability for us at the 
local and regional level. That is what really we have been 
concentrating on.
    Chairman Lieberman. You know, one of the raps about these 
grants is that they have been used for purposes other than 
intended by Congress. I know that you used them well, but in 
your experience with other firefighters and other fire 
departments, were these grants used for what you would guess 
Congress intended them to be used for?
    Mr. Cade. As far as I know, yes, sir, they were.
    Chairman Lieberman. All right. Maybe an awkward question, 
but I wanted to ask you if you would comment on the extent to 
which you feel in the new position you can advocate for more 
funding for firefighters around the country.
    Mr. Cade. Well, obviously, I have not been involved in any 
of the budget deliberations, so I am not really sure why they 
got to the point they did.
    Chairman Lieberman. We are officially finding you not 
guilty. [Laughter.]
    Mr. Cade. Thank you very much. But I certainly hope, if 
given the opportunity, if and after I am confirmed, to be able 
to try to determine why the funding levels are where they are 
and to be an advocate for it. I think that the funding at the 
local level improves the capability of the Fire Service, which 
provides a safer environment for all of us.
    Chairman Lieberman. Good. Thank you. My time is up.
    Senator Collins. Thank you, Mr. Chairman.
    I am going to follow up on the Chairman's comments on the 
FIRE Act and the SAFER Act because, as he mentioned, the 
Administration's budget provides no funding for SAFER Act 
grants and it slashes the FIRE Act grant funding by $253 
million.
    You obviously have had experience as a local fire chief 
with both of these programs, and you have been able to get FIRE 
grants. Did the ability to obtain Federal funding allow you to 
achieve certain capabilities that would not have been possible 
without those grants?
    Mr. Cade. Absolutely, Senator. Just as an example, one of 
our grants was used to completely upgrade all of our self-
contained breathing apparatus to the latest standards, heads-up 
display so that people get a visual idea of how much air they 
are using and how much they have in reserve. We replaced all of 
the compressors that we had. It was a $1.5 million program. 
Obviously, the grant did not pay for all of it, but as I said 
earlier, we were able to leverage the grant money with city 
money and actually some State money to be able to do that.
    So that is the approach that we have taken in Virginia 
Beach, and, quite frankly, I think that my has been experience 
with the other Fire Services, they are all trying to do that, 
to leverage that money. It has been a very great program.
    Senator Collins. The other positive aspect of this program 
that I hear about repeatedly from my fire chiefs in Maine is 
that it has a minimum of bureaucracy, that it is peer-reviewed, 
and that the money really goes out to those who need it rather 
than being spent on administrative expenses. Is that your 
experience as well?
    Mr. Cade. That has been my experience not only as the chief 
of Virginia Beach, but I had the good fortune in 2003, I 
believe it was, that I actually went up to the Fire Academy and 
reviewed the grant applications as one of the reviewers. And 
what I have seen not only as a reviewer but also just as a fire 
chief is that those grants go directly to them. There is a 
minimal amount of bureaucracy with them. Our experience has 
been very positive, very easy to deal with, not only getting 
the money but closing the grants out, which is always--getting 
all the paperwork done and all that, it really has been a very 
good process for us.
    Senator Collins. In light of your firsthand experience and 
your new responsibilities, would you be prepared to advocate 
for funding for these programs going forward? Obviously, you 
were not involved in the budget deliberations this year, and I 
am not going to put you on the spot by asking you to comment on 
the inadequate funding levels. But going forward, would you be 
prepared within the Department to be an advocate for these 
programs?
    Mr. Cade. Absolutely, Senator. I intend to make my voice 
heard. I think that is part of my responsibility, as 
potentially the head of the U.S. Fire Administration, to be 
that voice for the Fire Service. And I intend to do that.
    Senator Collins. I am very pleased to hear that, and I 
think the Department is going to benefit from having someone 
with front-line experience with these programs who can point 
out just how far what is really a pretty modest amount of money 
goes in improving our preparedness and response capabilities 
nationwide. So I am very pleased to hear that.
    I want to talk to you about another challenge, and that is 
the interoperability issue. Our Committee produced legislation 
that the Senate has just passed that would create a new 
dedicated grant program to improve the survivability of 
communications equipment but also the interoperability of 
equipment, so that we do not have the tragic problems that we 
saw on September 11 and Hurricane Katrina where first 
responders cannot talk with one another.
    My hope is we will be able to follow up that authorization 
with the funding that is needed and that all of us have worked 
so hard for. But you have brought up some very interesting 
points that funding alone does not solve the interoperability 
problems that we are facing. Could you discuss with us your 
plans to address some of the non-technical and non-funding 
barriers to achieving interoperability?
    Mr. Cade. Well, my experience in Virginia Beach and in the 
Hampton Roads region has been evolving, obviously, over the 
last 10 years since we originally got the DOD grant through the 
Nunn-Lugar-Domenici program.
    We recognize that interoperability is a critical issue, but 
it is more than just having the technology to be able to speak 
to one another. What really is necessary is to define how that 
equipment is going to be used and, quite frankly, to practice 
with it. And that is where I have seen a lot of the downfall.
    So hopefully what I can do, should I be confirmed by the 
Senate, is to bring that experience to the conversation to help 
my colleagues understand that you have got to be able to bring 
in not only just the Fire Service, but you have got to have the 
police departments, the public works, public utilities, all of 
the people that are going to be responsible for having to 
communicate with each other in the midst and aftermath of a 
natural disaster. It is a critical issue. There is no question 
about that. The technology, in my opinion, is the easy piece to 
take care of. It is the governance piece. It is deciding how 
that equipment is going to be used.
    I used an example earlier in a conversation, I believe, 
with the staff over having the opportunity to hear the deputy 
chief from New York City after the World Trade Center bombing 
in 1993 tell us that what he ended up having to do is send 
runners around because the radio system was so jammed up. So it 
is not--they had the system. They just could not use it. And I 
think that is the conversation that needs to take place at the 
national level of how do you use it, not just what you have to 
use.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins.
    Senator McCaskill, thanks for being here this morning.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you.
    First, congratulations to you and your family on your 
appointment, and I have to share with you that you have a very 
good friend on this Committee because of my background. My 
father was a volunteer firefighter, made us chase fire trucks 
my entire childhood, and then when I was an assistant 
prosecutor, under an LEAA grant I was made the arson prosecutor 
and spent several years of my life doing nothing but arson 
prosecutions. And my assistant on this Committee, my staff 
assistant, also an attorney, she followed me as the arson 
prosecutor several years later. So you actually have two people 
who could go to a scene and do C&O with you.
    Mr. Cade. Oh, great.
    Senator McCaskill. We could actually talk about charring 
and burn patterns and so forth. And I used to respond to fires 
in my gear when it was determined to be an arson, so I consider 
what you do very important and am anxious to be very supportive 
of the Fire Service in this country.
    I wanted to briefly ask you first about the expensive 
hazmat teams and how expensive it is for particularly mid-sized 
cities. I think most of our major urban areas have the 
expertise and the resources to be able to do hazmat. And what I 
worry about is these PPE suits. When I was the auditor in 
Missouri, we did an audit and determined that a lot of the PPE 
equipment that came through the homeland security grants, they 
were spread like shotgun blasts across our State. And when we 
did the audit looking at those grants, many of them still sat 
in boxes. Many of them had not been utilized, and there had not 
been training on even how to utilize them.
    Do you think in your position through the NFA you could 
begin some kind of long-distance training to go back and 
determine from these departments, whether they be fire 
departments--a lot of these are volunteer departments spread 
throughout the country--either say to them you need to take 
this long-distance training through NFA or we need to take your 
suits that are still in boxes and distribute them to places 
that have had the training that have not received the suits?
    Mr. Cade. Well, first of all, let me congratulate you on 
learning how to be an arson prosecutor because that is an 
extremely difficult thing.
    Senator McCaskill. I loved it. Give me a circumstantial 
evidence case. That is the most fun. The problem I had was 
getting the firefighters to quit busting down the doors without 
checking to see if it was locked first. That was one of the 
problems I had. [Laughter.]
    Mr. Cade. That is certainly a training issue. No question 
about that.
    Senator McCaskill. It is a training issue.
    Mr. Cade. From the hazardous materials response side, my 
experience has been, at least in the Hampton Roads region, and 
also in Maryland when I was there, we participate as part of a 
regional team, and that is how the Commonwealth of Virginia has 
theirs set up. So that there are people trained at the local 
level--I am a certified hazardous materials ops level person--
and then we--because we participate in a regional hazmat team, 
we are required to keep two hazardous material specialists on 
duty. I realize that is a little technical, but it is the 
highest level of training.
    And so that is how we have looked at doing it, and I think 
that same type of program obviously can be replicated across 
the country, where everyone has a basic understanding of what 
they need to do. Hazardous materials incidents usually evolve 
over time. They are usually not a very quickly evolving 
incident. So that if you have people that are at least trained 
at the initial levels, they can get in and start to do some 
things, start to lay out the hazardous material zones, hot 
zones, and those kinds of things, and then bring in the 
response capability and cleanup capability later. That to me 
makes the most sense.
    We struggle all the time at keeping the training level up 
to where it needs to be. We do a quarterly drill in our area--
that is how the Commonwealth does it--in addition to what we do 
on a regular monthly basis within the cities. So training is a 
critical issue, and I can see--I know the U.S. Fire 
Administration is putting a very heavy emphasis now on distance 
learning, and I think by building that partnership between the 
U.S. Fire Administration, the State agencies, and then 
ultimately the local agencies, that it is an easy way to 
leverage that training so that everyone has access to it and 
being able to provide time to it. I know you have talked about 
it, and Senator Collins and Senator Lieberman.
    I read this morning in the USA Today paper, which caught my 
eye that the numbers of volunteers have dropped this last year, 
4 million people less volunteering. We have seen that in the 
Fire Service, the same thing. So training time to people that 
are volunteering is highly critical, and that is where I see us 
being able to leverage it at the National Fire Academy and with 
the State and local partners.
    Senator McCaskill. When you were with Prince Georges 
County, in the 1980s, I assume, were you still fighting fires 
in the 1980s?
    Mr. Cade. Yes.
    Senator McCaskill. OK. And you moved up into various 
positions of responsibility.
    Mr. Cade. Yes, I did.
    Senator McCaskill. Was there ever a time when you were 
either fighting the fires or as a bureau chief that you did not 
see the men and women of Prince Georges County that proudly 
wore the uniform of the firefighter ever fail to respond to any 
kind of emergency that they were directed to respond to?
    Mr. Cade. I have never seen that happen, no.
    Senator McCaskill. Ever?
    Mr. Cade. No.
    Senator McCaskill. And you never witnessed any act of 
failure to be as brave as one could possibly imagine in terms 
of confronting danger?
    Mr. Cade. Never.
    Senator McCaskill. I do want to point out for the record, 
Mr. Chairman, that Prince Georges County has been operating 
under a collective bargaining agreement since the early 1980s.
    Thank you, Mr. Chairman.
    Chairman Lieberman. You remain a great litigator, Senator 
McCaskill, a great advocate. There is, as you may have 
gathered, another dispute going on here.
    Chief, your answers have been very thoughtful. You are a 
very impressive nominee for this position. I appreciate your 
willingness to take it on, and the President has nominated you.
    We are going to try to move your nomination as quickly as 
we possibly can through the Committee and through the Senate as 
well, so unless you have anything else to say, I am prepared to 
wind up the hearing.
    Mr. Cade. No. I just want to thank you all for taking the 
time. And, Senator, in the interest of full disclosure, I am 
still a card-carrying member of Local 1619. [Laughter.]
    Senator McCaskill. All right.
    Chairman Lieberman. I was going to say, we will try to keep 
that quiet from the Administration.
    Senator McCaskill. Right, until you get through.
    Mr. Cade. They control my pension.
    Chairman Lieberman. Thanks very much. Would you for the 
record, before we close, like to personally introduce your 
family members or anybody else behind you?
    Mr. Cade. Yes, I would love to. I have with me today my 
wife, Debbie, who has graced me with being my wife for the last 
35-plus years. So I am very fortunate. She was saying coming 
over in the car today that the only reason I started dating her 
was she lived down the street from the firehouse. [Laughter.]
    Which is not totally true. It may have been why I started 
dating her, but obviously after 35 years of marriage, there is 
a lot more to it. So I am very fortunate that she is here with 
me.
    Also with me is my brother-in-law, Jesse Brown. And a long-
time good friend Bill Hayden is here with me. And from the 
IAFC, a very good friend and council member of the city of 
Charlottesville, Virginia, the fire chief--oh, I am sorry.
    Chairman Lieberman. Chief, welcome.
    Mr. Cade. I did not see my sister sneak in behind me. 
Julian Taliaferro, obviously, the city council member from 
Charlottesville. And my sister, Allison, and her husband, 
David, are here.
    Chairman Lieberman. How about those good-looking young 
people there behind you, the first row.
    Mr. Cade. Well, these wonderful first-row people work for 
the Department of Homeland Security, and they have lovingly 
helped me through this whole process.
    Chairman Lieberman. Good.
    Mr. Cade. They have been great.
    Senator Collins. His handlers.
    Chairman Lieberman. That is good.
    Mr. Cade. You will probably see a whole lot more of them 
than me--I hope.
    Chairman Lieberman. I think they had some good material to 
work with. I thank you.
    Without objection, the record of the hearing will be kept 
open until 5 p.m. tomorrow for the submission of any written 
statements or questions for the record.
    Thank you very much. This hearing is adjourned.
    [Whereupon, at 10:42 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T4412.001

[GRAPHIC] [TIFF OMITTED] T4412.002

[GRAPHIC] [TIFF OMITTED] T4412.003

[GRAPHIC] [TIFF OMITTED] T4412.004

[GRAPHIC] [TIFF OMITTED] T4412.005

[GRAPHIC] [TIFF OMITTED] T4412.006

[GRAPHIC] [TIFF OMITTED] T4412.007

[GRAPHIC] [TIFF OMITTED] T4412.008

[GRAPHIC] [TIFF OMITTED] T4412.009

[GRAPHIC] [TIFF OMITTED] T4412.010

[GRAPHIC] [TIFF OMITTED] T4412.011

[GRAPHIC] [TIFF OMITTED] T4412.012

[GRAPHIC] [TIFF OMITTED] T4412.013

[GRAPHIC] [TIFF OMITTED] T4412.014

[GRAPHIC] [TIFF OMITTED] T4412.015

[GRAPHIC] [TIFF OMITTED] T4412.018

[GRAPHIC] [TIFF OMITTED] T4412.019

[GRAPHIC] [TIFF OMITTED] T4412.020

[GRAPHIC] [TIFF OMITTED] T4412.021

[GRAPHIC] [TIFF OMITTED] T4412.022

[GRAPHIC] [TIFF OMITTED] T4412.023

[GRAPHIC] [TIFF OMITTED] T4412.024

[GRAPHIC] [TIFF OMITTED] T4412.025

[GRAPHIC] [TIFF OMITTED] T4412.026

[GRAPHIC] [TIFF OMITTED] T4412.027

[GRAPHIC] [TIFF OMITTED] T4412.028

[GRAPHIC] [TIFF OMITTED] T4412.029

[GRAPHIC] [TIFF OMITTED] T4412.030

[GRAPHIC] [TIFF OMITTED] T4412.031

[GRAPHIC] [TIFF OMITTED] T4412.032

[GRAPHIC] [TIFF OMITTED] T4412.033

[GRAPHIC] [TIFF OMITTED] T4412.034

                                 <all>

</pre></body></html>
